<html>
<title> - IMPLEMENTATION AND CYBERSECURITY PROTOCOLS OF THE CONSOLIDATED AUDIT TRAIL</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    IMPLEMENTATION AND CYBERSECURITY.
                            PROTOCOLS OF THE
                        CONSOLIDATED AUDIT TRAIL

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON CAPITAL MARKETS,
                       SECURITIES, AND INVESTMENT

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 30, 2017

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 115-61
                           
                           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
 
                               __________
                                
 
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
31-288 PDF                  WASHINGTON : 2018                     
           
 -----------------------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
 http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
 U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3255425d72514741465a575e421c515d5f1c">[email&#160;protected]</a> 
                           
                           

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

PATRICK T. McHENRY, North Carolina,  MAXINE WATERS, California, Ranking 
    Vice Chairman                        Member
PETER T. KING, New York              CAROLYN B. MALONEY, New York
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             BRAD SHERMAN, California
STEVAN PEARCE, New Mexico            GREGORY W. MEEKS, New York
BILL POSEY, Florida                  MICHAEL E. CAPUANO, Massachusetts
BLAINE LUETKEMEYER, Missouri         WM. LACY CLAY, Missouri
BILL HUIZENGA, Michigan              STEPHEN F. LYNCH, Massachusetts
SEAN P. DUFFY, Wisconsin             DAVID SCOTT, Georgia
STEVE STIVERS, Ohio                  AL GREEN, Texas
RANDY HULTGREN, Illinois             EMANUEL CLEAVER, Missouri
DENNIS A. ROSS, Florida              GWEN MOORE, Wisconsin
ROBERT PITTENGER, North Carolina     KEITH ELLISON, Minnesota
ANN WAGNER, Missouri                 ED PERLMUTTER, Colorado
ANDY BARR, Kentucky                  JAMES A. HIMES, Connecticut
KEITH J. ROTHFUS, Pennsylvania       BILL FOSTER, Illinois
LUKE MESSER, Indiana                 DANIEL T. KILDEE, Michigan
SCOTT TIPTON, Colorado               JOHN K. DELANEY, Maryland
ROGER WILLIAMS, Texas                KYRSTEN SINEMA, Arizona
BRUCE POLIQUIN, Maine                JOYCE BEATTY, Ohio
MIA LOVE, Utah                       DENNY HECK, Washington
FRENCH HILL, Arkansas                JUAN VARGAS, California
TOM EMMER, Minnesota                 JOSH GOTTHEIMER, New Jersey
LEE M. ZELDIN, New York              VICENTE GONZALEZ, Texas
DAVID A. TROTT, Michigan             CHARLIE CRIST, Florida
BARRY LOUDERMILK, Georgia            RUBEN KIHUEN, Nevada
ALEXANDER X. MOONEY, West Virginia
THOMAS MacARTHUR, New Jersey
WARREN DAVIDSON, Ohio
TED BUDD, North Carolina
DAVID KUSTOFF, Tennessee
CLAUDIA TENNEY, New York
TREY HOLLINGSWORTH, Indiana

                  Kirsten Sutton Mork, Staff Director
      Subcommittee on Capital Markets, Securities, and Investment

                   BILL HUIZENGA, Michigan, Chairman

RANDY HULTGREN, Illinois, Vice       CAROLYN B. MALONEY, New York, 
    Chairman                             Ranking Member
PETER T. KING, New York              BRAD SHERMAN, California
PATRICK T. McHENRY, North Carolina   STEPHEN F. LYNCH, Massachusetts
SEAN P. DUFFY, Wisconsin             DAVID SCOTT, Georgia
STEVE STIVERS, Ohio                  JAMES A. HIMES, Connecticut
ANN WAGNER, Missouri                 KEITH ELLISON, Minnesota
LUKE MESSER, Indiana                 BILL FOSTER, Illinois
BRUCE POLIQUIN, Maine                GREGORY W. MEEKS, New York
FRENCH HILL, Arkansas                KYRSTEN SINEMA, Arizona
TOM EMMER, Minnesota                 JUAN VARGAS, California
ALEXANDER X. MOONEY, West Virginia   JOSH GOTTHEIMER, New Jersey
THOMAS MacARTHUR, New Jersey         VICENTE GONZALEZ, Texas
WARREN DAVIDSON, Ohio
TED BUDD, North Carolina
TREY HOLLINGSWORTH, Indiana
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    November 30, 2017............................................     1
Appendix:
    November 30, 2017............................................    41

                               WITNESSES
                      Thursday, November 30, 2017

Beller, Mike, Chief Executive Officer, Thesys Technologies, LLC..     5
Concannon, Chris, President and Chief Operating Officer, Chicago 
  Board of Options Exchange......................................     6
Dolly, Lisa, Chief Executive Officer, Pershing, on behalf of the 
  Securities Industry and Financial Markets Association..........    10
Gellasch, Tyler, Executive Director, Healthy Markets Association.     8

                                APPENDIX

Prepared statements:
    Beller, Mike.................................................    42
    Concannon, Chris.............................................    50
    Dolly, Lisa..................................................    54
    Gellasch, Tyler..............................................    61

 
                    IMPLEMENTATION AND CYBERSECURITY
                            PROTOCOLS OF THE
                        CONSOLIDATED AUDIT TRAIL

                              ----------                              


                      Thursday, November 30, 2017

                     U.S. House of Representatives,
                           Subcommittee on Capital Markets,
                                Securities, and Investment,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 2128, Rayburn House Office Building, Hon. Bill Huizenga 
[chairman of the subcommittee] presiding.
    Present: Representatives Huizenga, Hultgren, Poliquin, 
Emmer, MacArthur, Davidson, Budd, Hollingsworth, Maloney, 
Sherman, Scott, Foster, Vargas, Gottheimer, and Gonzalez.
    Chairman Huizenga. The committee will come to order. The 
Chair is authorized to declare a recess of the committee at any 
time. This hearing is entitled, ``Implementation and 
Cybersecurity Protocols of the Consolidated Audit Trail.''
    And I want to thank our guests and witnesses for being here 
today.
    I now recognize myself for 5 minutes to give an opening 
statement.
    Until now there has been no single database that provides 
comprehensive and readily accessible data about market orders 
and executions across securities markets. Regulators tracking 
suspicious activity or investigating unusual events had to 
collect and aggregate large amounts of data from different 
markets and participants.
    Regulators needed one system that would permit them to 
track orders and executions across securities markets. The 
thinking was that a consolidated audit trail system or database 
that would help regulators keep up with new technology and 
trading patterns in the market would fit the bill.
    That is why, following the Flash Crash of 2010, the 
Securities and Exchange Commission (SEC) adopted a rule to 
require self-regulatory organizations (SROs), including 
national securities exchanges and the Financial Industry 
Regulatory Authority (FINRA), to develop and implement the 
Consolidated Audit Trail, or CAT, as a data repository to 
collect and accurately identify every order from origination 
through its entire lifecycle, including any cancellation, 
modification, and trade execution for all exchange-listed 
equities and options across the U.S. markets.
    In January 2017, the SROs selected Thesys Technologies, LLC 
to build the CAT as the Plan processor, and the SROs were to 
begin reporting trade and order data to the CAT on November 15 
of 2017, of this year. Exactly 1 year later, beginning in 
November 2018, the SEC's order currently will require broker 
dealers to submit data, including certain sensitive customer 
information, to Thesys, the CAT Plan processor.
    Many have voiced concerns about the cost of building and 
implementing such a system. Initial rough estimates by the SEC 
expect the CAT to carry a one-time implementation cost of $2.4 
billion, in addition to a $1.7 billion cost in ongoing annual 
reports, which will be passed on to customers.
    Most troubling, however, is the amount of personally 
identifiable information, or PII, that will be required to be 
collected by the CAT, in my opinion. Not only will CAT be 
collecting such data points as Social Security numbers, 
addresses, and dates of birth for individual customers, but it 
will also gather identifiable proprietary transaction data that 
could potentially be reversed engineered and used for nefarious 
activity, such as market manipulation.
    Let's not forget even the SEC was the victim of a data 
breach of highly sensitive personally identifiable information. 
April of 2016 the GAO identified weaknesses regarding 
information security protocols at the SEC and noted that the 
Securities and Exchange Commission's failure to implement an 
agency-wide data security program. Additionally, the SEC's own 
internal assessment, initiated once Chairman Clayton came on 
board, found that the agency had inadequate controls and that 
there were serious cyber and data risks.
    Concerns regarding data security are not unfounded. In 
September of this year, we learned of a software vulnerability 
in the test filing component in the SEC's EDGAR--or electronic 
data gathering, analysis, and retrieval system. Because of this 
lapse in security, hackers were able to gain access to highly 
sensitive material, including the names, dates of birth, and 
Social Security numbers of two individuals.
    A recent report from the Government Accountability Office 
highlights how the EDGAR data breach only underscores what is 
now even of greater concern: The sufficiency of risk control 
mechanisms for the SEC approved in the Consolidated Audit 
Trail. The CAT system will be the most comprehensive repository 
of market data we have ever seen for all exchange-listed 
equities and options across all U.S. markets. Some have 
indicated that this database will be the world's second-largest 
single database, only behind the National Security Agency.
    I continue to express very serious concerns about the 
security of such extraordinary amounts of personally 
identifiable information being collected and held by the CAT, 
as well as who might have access to such confidential and 
sensitive information. I think that is a vital question.
    While the CAT may be a helpful resource for the SEC and 
even the SROs once fully implemented, insufficient data 
security controls will only undermine confidence in our 
markets.
    Today's hearing will examine the status of the CAT's 
implementation and the adequacy of existing data security 
protections regarding the storage and use of CAT data by 
entities that are part of the CAT operating committee, the CAT 
Plan processor, and the SEC. It will also example whether 
additional cybersecurity protocols are necessary to properly 
safeguard collected data, including that PII--personally 
identifiable information.
    Additionally, the hearing will examine a discussion draft 
legislative proposal that we have titled, ``The American 
Customer and Market Information Protection Act,'' which would 
require the SEC, each SRO that is a participant of the CAT NMS 
(national market system) Plan, and the CAT Plan processor to 
develop comprehensive internal risk control mechanisms to 
safeguard and govern the security of information reported, 
stored, or accessed from the CAT.
    The legislation would prohibit the CAT Plan processor from 
accepting data until it develops such risk controls and the SEC 
certifies those controls. The legislation would also prohibit 
the SROs from accessing CAT data until each entity develops 
risk controls and the SEC certifies them, as well. Last, the 
discussion draft would require the SEC to conduct a cost-
benefit analysis on the CAT's use of PII, as well as report to 
Congress whether such information is a necessary input for the 
CAT, the risks posed to investors by using that information, 
and alternatives that the SEC could consider.
    The importance of cybersecurity cannot be overstated. The 
ability of the SEC to safeguard nonpublic financial information 
and other highly sensitive data is paramount because it 
instills confidence in our markets.
    The Federal Government--namely, the SEC--cannot afford to 
get this wrong. In fact, SEC Commissioner Michael Piwowar 
recently commented regarding CAT that, quote, ``deadlines are 
important, but the SEC has one chance to get this right. We 
have to make sure we have everything locked down. We can get it 
done, or we can get it done right. We need to get it done 
right,'' end quote.
    I couldn't agree more.
    And I look forward to hearing from our distinguished panel 
today.
    So with that, the Chair now recognizes the Ranking Member 
for a very generous 5 minutes as well, as I went over for a 
bit. And the gentlelady has 5 minutes, as well. Thank you.
    Mrs. Maloney. You had a lot to say and it was all 
important.
    And I thank you for holding this important hearing and for 
all of our panelists for being here today with us.
    The so-called Flash Crash in 2010 was an extraordinary and 
terrifying event in which markets simply went haywire. They 
experienced a sudden inexplicable crash and then recovered most 
of their losses just as quickly.
    The entire episode lasted only 36 minutes, but it had a 
lasting effect on investor confidence in our markets. And I 
have always said that markets run more on confidence than they 
do on capital.
    In the aftermath of that wild-day market, participants, 
regulators, and Members of Congress were all asking the same 
questions: What happened, and why did it happen?
    To answer those questions the SEC and CFTC (Commodity 
Futures Trading Commission) attempted to reconstruct all of the 
trading activity that occurred that day. This should have been 
a relatively straightforward exercise to the agencies with 
oversight of the stock and futures market, but it took the 
agency over 4 months to issue a report on the Flash Crash, and 
even then the report was inconclusive.
    Why did it take the agency so long? Because they didn't 
actually have a comprehensive system in place to collect all of 
the information about the trading that takes place in U.S. 
markets.
    And I must share with you, when Fuld, head of Lehman, was 
testifying on the financial crisis I asked him, ``What is the 
one thing that we could do that would prevent it in the 
future?'' And it was to collect this trading information and 
have it in one place. So this is an important project for the 
stability of our markets and our economy.
    Instead, they were relying on a patchwork of audit trails 
operated by individual exchanges or other trading venues. And 
each of these audit trails had different types of information, 
which made it very difficult to track orders that were routed 
from one exchange to another.
    As a result of all of this, the SEC proposed to create the 
Consolidate Audit Trail, or CAT, which would serve as a 
comprehensive record of all trading activity in the U.S. equity 
markets. The SEC proposed the CAT back in 2010, and 7 years 
later we still do not have a fully functioning audit trail.
    We can go to the moon, but we can't figure out how to have 
a fully functioning audit trail. I would say that this is an 
American scandal.
    The creation of the CAT has been subject to endless delays 
and too many missed deadlines to count. The CAT was supposed to 
go live 2 weeks ago, on November 15th. But at the last minute 
the exchanges charged with implementing the CAT requested 
another delay and stated that they could not start submitting 
data to the CAT on time.
    SEC Chairman Clayton rejected the exchanges' request for 
another delay, but the reality is that even though the deadline 
has passed the CAT is still not up and running. I completely 
support Chairman Clayton in his demand to start right now.
    Some market participants have raised concerns about data 
security due to the large volume of confidential information 
that will be stored in the CAT. The plan for the CAT, which was 
approved by all of the exchanges and the SEC, does include data 
security standards, and I will be interested in hearing whether 
our panel believes these security data standards are strong 
enough or need to be enhanced.
    So I want to thank all of the panelists for appearing 
today.
    And I yield back my time, and I am under budget and on 
time.
    Chairman Huizenga. If you--
    Mrs. Maloney. That is what we need the CAT system to be--
    Chairman Huizenga. Yes, yes.
    Mrs. Maloney. --Right?
    Chairman Huizenga. If you average it out we took our 10 
minutes, so--
    Mrs. Maloney. OK.
    Chairman Huizenga. Thank you. Appreciate the gentlelady's 
attention to this.
    And today we welcome a great panel. Appreciate them all 
being here.
    First we have Mr. Mike Beller, CEO of Thesys Technologies, 
LLC. We also have Chris Concannon, President and Chief 
Operating Officer of the Chicago Board of Options Exchange.
    Welcome.
    We have Tyler Gellasch, Executive Director of Healthy 
Markets Association. And last but certainly not least, Lisa 
Dolly, who is the CEO of Pershing, LLC.
    And we welcome our panel. Thank you very much.
    And with that, Mr. Beller, you are recognized for 5 
minutes.

                    STATEMENT OF MIKE BELLER

    Mr. Beller. Thank you, Chairman Huizenga, Ranking Member 
Maloney, and members of the subcommittee, for inviting me to 
testify.
    The Consolidated Audit Trail is a vital step forward to 
dramatically improve the regulation and protection of the U.S. 
capital markets, and I applaud the committee for organizing 
this hearing and playing an active oversight role in this area 
for the benefit of all investors. My name is Mike Beller and I 
am the Chief Executive Officer of Thesys Technologies, the 
parent company of Thesys CAT, which is the Plan processor 
designated by the CAT NMS Plan. I am a technologist and 
financial technology business executive with over 30 years of 
industry experience.
    In 2010, in response to the Flash Crash, the Commission 
began working on a rule to develop the CAT. As Chairman Clayton 
recently stated, ``The CAT is intended to enable regulators to 
oversee our securities markets on a consolidated basis and, in 
so doing, better protect these markets and investors.''
    The SEC's final rule was adopted with bipartisan support in 
July 2012. In accordance with the rule, in February 2013 the 
SROs, acting together as CAT NMS, LLC, issued an RFP for a firm 
to be designated as the Plan processor to build and operate the 
CAT system.
    We were one of over 30 companies that expressed an intent 
to bid. November 2016 the SEC unanimously approved the CAT NMS 
Plan, and in January 2017, after a 4-year bidding process, 
Thesys Technologies was selected as the Plan processor.
    On April 6, 2017, only 7 months ago, Thesys Tech and CAT 
NMS reached a contractual agreement, known as the Plan 
Processor Agreement, and Thesys established a subsidiary known 
as Thesys CAT to execute its responsibilities under that 
agreement.
    When we began this process we viewed the CAT as an 
opportunity to apply our expertise to meaningfully upgrade the 
regulatory infrastructure of the markets. This is a powerful 
expression of our mission of better markets through technology.
    The CAT improves on existing systems by significantly 
increasing the information available to regulators, allowing 
them to better track orders and identify the individuals 
involved in trading activity. And we believe the CAT will 
drastically reduce the amount of time and effort required to 
find and stop bad actors in the market.
    From the outset we have focused on cybersecurity as a 
unique challenge and responsibility in the context of CAT. 
While cybersecurity was our priority in developing a CAT 
solution, the project was hardly our introduction as 
professionals to the critical importance of cybersecurity.
    I personally was introduced to the issue in a very visceral 
way almost 30 years ago on November 2nd of 1988, when systems I 
managed were attacked by the first wide-scale Internet worm, 
the Morris Internet Worm. In 1988 there were only approximately 
80,000 computers on the Internet and the worm spread from one 
computer to another through the Internet with ease.
    The analogy I often use is that at the time none of us had 
good locks on our doors, but the Internet was like a small town 
30 years ago, and we could perhaps be excused for not locking 
our doors and not expecting anyone to break in. But times have 
changed.
    The Internet is now a global platform connecting billions 
of people. Very often, when building systems, firms focus 
heavily on securing the perimeter, making sure there are good 
locks on the doors; but once the perimeter security is breached 
systems inside the wall are entirely too vulnerable, as we saw 
in the case of the Equifax breach.
    In developing our solution for the CAT, we adopted best 
practices, using multi-factor authentication and encrypting all 
data, both at rest and in transit between systems. But beyond 
that, we determined to build the system with a security-first 
mindset, where cybersecurity is not an afterthought but is 
built into the systems and processes from the start.
    By building encryption technology into the very storage and 
query systems of the CAT from the ground up we have designed a 
system that not only has a very strong perimeter but, if 
breached, has an array of extra protections to limit the 
information a cybercriminal can obtain and to make it easier to 
detect a breach when it happens.
    So in conclusion, we at Thesys believe that the CAT is an 
important step forward in the regulation of our markets. From 
the time we signed the contract 7 months ago we have been hard 
at work assembling our team, working with the SROs and the 
industry to develop specifications, and building out the CAT's 
technical and operational components.
    We look forward to deploying and operating the CAT with all 
stakeholders having confidence that the system is safe and 
secure and having had sufficient time to discharge their 
various requirements and responsibilities.
    Thank you again for inviting me today, and I look forward 
to answering your questions.
    [The prepared statement of Mr. Beller can be found on page 
42 of the appendix.]
    Chairman Huizenga. Thank you.
    With that, Mr. Concannon, you are recognized for 5 minutes.

                  STATEMENT OF CHRIS CONCANNON

    Mr. Concannon. Thank you.
    Mr. Chairman, members of the subcommittee, I am Chris 
Concannon, President and Chief Operating Officer of Cboe Global 
Markets. I have over 20 years of experience as an exchange 
executive, trading firm executive, and a regulator.
    Cboe operates six national securities exchanges consisting 
of four options exchange and four equity markets. We operate 
the largest U.S. options exchange; we are the second-largest 
U.S. equities exchange operator. Cboe also operates a U.S. 
futures exchange, the largest European exchange, and a foreign 
exchange platform.
    I would like to thank the subcommittee for inviting me to 
testify today regarding the Consolidated Audit Trail, or CAT.
    In August 2012 the Securities and Exchange Commission 
adopted rule 613 under the Securities and Exchange Act of 1934 
to require securities exchanges and FINRA to submit a national 
market system plan to create a consolidated order tracking 
system. The primary rationale behind the establishment of the 
CAT was to improve upon and consolidate a regulatory framework 
that at the time was supported by disparate audit trail 
sources.
    The SROs initially submitted a CAT Plan to the SEC on 
September 30, 2014. The Commission approved the CAT Plan on 
November 15, 2016.
    For several years, including during the last year since 
that approval, the SROs have been working diligently on 
execution of the CAT project. This has entailed, among other 
things, a comprehensive bidding process to determine the 
operator of the CAT Plan processor, selection of the CAT Plan 
processor, negotiations of a contract with the chosen entity, 
and commencement of the building of the CAT itself.
    Accomplishing each of these steps is no small feat, given 
that there are over 20 SROs operated by multiple holding 
companies that must effectively agree every step of the way.
    Per the milestones set forth in rule 613, the Plan 
processor was selected in January of this year. And the 
development of specific details in the CAT design framework, 
including data submission layouts and, in particular, security 
protocols, have taken some time.
    Pursuant to rule 613, the phase one implementation of the 
CAT reporting process was due to go live on November 15th of 
this year, 1 year from the approval order. Unfortunately, work 
on the CAT is not complete.
    In planning for the completion of the CAT project, the SROs 
have taken into account the heightened need to maximize the 
CAT's security planning and protocols, given the recent 
proliferation of data breaches that have occurred and the 
highly sensitive nature of the data that will be stored in the 
CAT. The SROs have also thoroughly consulted and forecasted 
with the CAT Plan processor and considered ample feedback from 
industry participants on deliverables and expectations.
    The proposed revised schedule takes into account these 
factors, as well as forecasting based on detailed framework 
plans.
    We continue to work toward expeditiously completing the CAT 
project. Indeed, our efforts on the CAT have been substantial. 
To date, Cboe has spent over $10 million on CAT, we have over a 
dozen employees regularly involved in the CAT project, and we 
have spent approximately 30,000 man-hours on CAT.
    I commend the subcommittee for conducting this hearing and 
for continuing to focus on ensuring that the CAT is developed 
efficiently and effectively while insisting that the data 
security around the CAT is vigorous and robust. I am concerned 
about the risks associated with storing PII in the CAT database 
and can assure you that Cboe is very interested in working with 
the Commission and other stakeholders on exploring alternatives 
around PII as a necessary component of CAT.
    While I recognize there are benefits to be derived from the 
CAT, I also must point out that costs associated with this 
project likely are ultimately funded by investors. We are 
committed to building the CAT as currently contemplated and 
remain committed to maintaining a strong regulatory program.
    While the CAT buildout continues, please let there be no 
doubt that our existing surveillance and regulatory framework 
is robust and our markets are well protected. Indeed, the U.S. 
financial markets are the most efficient and liquid markets in 
the world and the regulatory framework around those markets, 
led by the SEC, is second to none.
    The CAT will be an important component of that framework, 
and we look forward to the completion of a smart, secure, and 
efficient CAT system.
    Thank you for the opportunity to appear before you today. I 
am happy to answer any questions.
    [The prepared statement of Mr. Concannon can be found on 
page 50 of the appendix.]
    Chairman Huizenga. Thank you.
    Mr. Gellasch, you are recognized for 5 minutes.

                   STATEMENT OF TYLER GELLASCH

    Mr. Gellasch. Thank you.
    Chairman Huizenga, Ranking Member Maloney, and other 
members of the subcommittee, thanks for having us here today. I 
am the executive director of a trade association of those 
investors, the pension plans, and investment advisors who 
believe that informed market participants and regulators are 
essential for healthy markets.
    Almost exactly 7 years ago--next week--then staffer Kara 
Stein staffed a hearing across the Capitol where the SEC and 
CFTC chairmen assured the public and our bosses that the 
Consolidated Audit Trail was going to be up and running by now 
and not be billions of dollars that had been projected in their 
recent proposal, and we are now still years away from that.
    We are ostensibly here to talk today about data security, 
but rather, I will assert that this hearing is really about 
whether for-profit market participants, some of whom may have 
the most to lose by the creation of the CAT, are able to 
exploit a convenient public fear to continue to deny regulators 
the basic tools to police the markets. After years of delays 
and exemptions, they have simply run out of other excuses.
    The exchanges and FINRA have not offered any significant 
new information as to why the provider that they selected and 
the expectations and standards that they set are somehow 
inadequate, other than repeating the words ``cybersecurity 
risk,'' ``PII,'' and ``breach'' as many times and in as grave 
of tones as they can muster. I don't know why the next major 
market participant--or the next major market event or 
manipulation will happen, but I can safely say that they will, 
and the real question is whether or not you are going to give 
the regulators the tools that they need to enforce and protect 
investors.
    Today, private market participants have a much more 
comprehensive view of the markets than the regulators tasked 
with overseeing them. Currently, if regulators want to see who 
is conducting trading they have to ask FINRA, who then asks the 
broker dealers for the personal identifying information. So the 
broker dealers have it and it is just the regulators who don't.
    But because there is no automated way to link the trading 
and the underlying beneficial owner, there is actually very 
little chance to identify and stop sophisticated market abuses 
without a whistleblower. In fact, it is only those who are not 
smart enough to spread around their trading who get caught.
    And in fact, we only need to look at the Flash Crash to see 
how this all works or doesn't. The Flash Crash was concerning 
for a lot of reasons. And it was months before the SEC or CFTC 
figured it out, and that is concerning in its own right.
    But it wasn't until 5 years later that we learned the role 
of one market manipulator outside of London in his parent's 
basement--5 years later, and that was only because of a 
whistleblower.
    By using the NMS Plan process to build the CAT, the SEC 
essentially outsourced every function for it, including who is 
going to pay. It puts some of the parties who stood to lose the 
most from the CAT's existence in charge of creating it.
    The SROs were supposed to have the CAT Plan by April 2013. 
When they weren't going to meet the deadline they asked for an 
extension; they got it. When they weren't going to meet the new 
deadline they asked for another extension; they got it.
    More years, more exemptions, more delays. Now we are 
finally about ready to have it, and we have reached the moment 
where it is about ready to happen, and it is not going to 
happen either. And the excuse is data security.
    After 7 years of planning and hundreds of meetings and tens 
of thousands of hours for some of these folks, what the heck 
have they been doing if not worrying about data security? 
Interestingly, they have been. They set detailed security 
protocols and information-handling, some that actually SIFMA 
(Securities Industry and Financial Markets Association) and 
others have called the gold standard.
    So I am not aware of any allegations that Thesys can't meet 
the standards that the SROs set or that the standards 
themselves are somehow inadequate.
    The legislation this committee has passed and is now 
considering would unquestionably delay the CAT and leave it 
tied up in legal complexities and red tape for years--frankly, 
if it doesn't kill it entirely. The new bill would prevent 
Thesys from accepting data until the SEC certifies that its 
required internal risk control mechanisms.
    To be blunt, do we really think the SEC are the experts on 
data security right now? Isn't that why--part of the reason why 
we are here?
    But there are dozens of other questions, including the 
adequacy: What is the SEC going to do? What is the standard? 
Are they going to test the adequacy of those mechanisms? Does 
that somehow inoculate Thesys from liability if there is a 
breach because the SEC blessed it?
    The bill would also require an entirely new and duplicative 
cost-benefit analysis and a report to Congress on the need for 
identifying information. That is not forwarding the process. 
That is not talking about data security. That is the primary 
reason for the CAT, to figure out who is doing the trading.
    I also want to take a couple of seconds here to point out 
that that is not the only thing that is delayed. Who is going 
to fund it is also delayed. The SEC has delayed that decision 
until January 2018, and I am sure you will be surprised to 
learn that the exchanges have decided to try to push most of 
that burden onto the broker dealers, not themselves.
    Longer term, I hope you push for the Consolidated Audit 
Trail to be implemented without delay to include futures, and I 
hope you end the NMS Plan process that got us into this mess.
    Thank you.
    [The prepared statement of Mr. Gellasch can be found on 
page 61 of the appendix.]
    Chairman Huizenga. Ms. Dolly, you are recognized for 5 
minutes.

                     STATEMENT OF LISA DOLLY

    Ms. Dolly. Thank you, Chairman Huizenga, Ranking Member 
Maloney, and distinguished members of the subcommittee, for the 
opportunity to testify today on behalf of SIFMA and share our 
views on the implementation plan for the Consolidated Audit 
Trail.
    My name is Lisa Dolly. I am the CEO of Pershing, which is a 
bank of New York Mellon company. Pershing is custodian for over 
6 million U.S. institutional and retail clients, and we 
safekeep, on behalf for those clients, more than $1.5 trillion 
in assets.
    This subcommittee's review of CAT implementation is 
incredibly important and timely. There is a great value in a 
workable, secure CAT, but the implementation issues remain 
largely unaddressed and incomplete. Quite frankly, there is 
concern remaining over the security of privacy issues.
    When the CAT is fully operational, as mentioned before, it 
will capture all customer and order event information for 
equities and listed options from the time of execution, 
becoming one of the world's largest databases. In fact, every 
day the system will take in over 58 billion records--orders, 
executions, quotes--and will maintain this to become a 100 
million-data point database for institutional and retail 
investors and their unique customer identifying information.
    So despite the unprecedented amount of sensitive 
information being stored in the central repository and the 
associated data protection concerns, the technical 
specifications that have been released to date do not, 
alarmingly, include many details around data security and 
protection. And as the SROs' initial reporting deadline 
approached and passed, Thesys had not yet hired a chief 
information security officer, who would be responsible to 
review and implement the data security policies and procedures 
to ensure the protection of CAT data, as required by the CAT 
NMS Plan.
    The SEC and the SROs should make the case that PII is 
actually necessary for CAT. If sensitive identifying 
information is included in the CAT, then the SEC and the SROs 
must provide better assurances on the data security than they 
have to date. Financial firms and regulatory agencies share a 
common goal in securing and protecting the data entrusted to 
them by clients and financial institutions, and this issue 
trumps everything else.
    In addition to the question of the uses of CAT data, all of 
the 22 SROs and the SEC will be allowed to download any or bulk 
data from CAT into their own systems, and the NMS Plan requires 
the CAT to accommodate up to 3,000 users' access to that data. 
As a result, the protection of the data depends not only on the 
security of the CAT system but also the security of each of the 
SROs plus the SEC.
    SIFMA believes the draft legislation being discussed today 
would benefit the protection of this information. At this 
point, we think there should be a delay in the CAT 
implementation to allow the SEC to examine the need to include 
PII in the CAT, and if the SEC decides that such information is 
necessary it is absolutely imperative that the CAT's data 
security protocol be strong and secure.
    The CAT NMS Plan should also be amended so that no PII or 
identifying trade data can be extracted from the CAT processor. 
Rather, the regulators should perform surveillance within the 
CAT security perimeter.
    A delay is also required to allow additional time for the 
broker dealers' CAT implementation. Once the technical 
specifications have been finalized, broker dealers should have 
a minimum of 12 months to complete the implementation and 
testing based upon final specifications.
    Going forward, a collaboration among industry participants, 
the SROs, and Thesys could really provide the opportunity for 
CAT to be informed by the insights and interests of all those 
affected and all the market participants so they can be 
incorporated and provide for a successful CAT construction and 
implementation. There is still time to get this right.
    In conclusion, SIFMA appreciates the interest of the 
subcommittee and is supportive of further efforts to legislate 
improvements to the CAT. And I thank you for the opportunity to 
testify and look forward to answering your questions.
    Thank you.
    [The prepared statement of Ms. Dolly can be found on page 
54 of the appendix.]
    Chairman Huizenga. Thank you, Ms. Dolly. Appreciate that.
    And with that, I will recognize myself for 5 minutes for 
questioning.
    Many, including myself, have raised concerns about 
cybersecurity and the protection of data submitted to the CAT. 
Apparently some believe that it is, quote, ``just to exploit 
convenient public fear.'' I don't believe that is the case. As 
you know, the CAT NMS Plan requires a plan processor to appoint 
a chief information security officer who will be responsible 
for creating and enforcing appropriate policies, procedures, 
control structures.
    Mr. Beller, in your statement you said that Thesys 
developed three principles that guided the design of the CAT 
database. Specifically, you say, quote, ``third and most 
importantly, the CAT must be secure,'' close quote.
    If cybersecurity is top of mind for you and Thesys, why has 
a chief information security officer not been hired to date?
    Mr. Beller. Thank you, Chairman.
    The selection and approval of a chief information security 
officer is an activity that is collaborative between Thesys, as 
the Plan processor, and the SROs acting as CAT NMS. As yet, we 
have not agreed on a candidate.
    The role is a very challenging role to fill that has 
expectations in policy areas, in technology areas, in 
management areas. And we are working collaboratively to find 
the right person to fill that role. Our recent activities 
together lead me to believe that we should come to a positive 
conclusion shortly.
    Chairman Huizenga. OK.
    Mr. Concannon, is this simply private companies trying to, 
quote, ``exploit convenient public fear'' for the concerns that 
you have been expressing?
    Mr. Concannon. I think the evidence is pretty clear that we 
are not exploiting public fear when we see so many breaches 
that have taken place, including our own Government, which has 
been breached multiple times. And some of the most 
sophisticated agencies of our Government have been breached.
    So when I think about the information that we have planned 
under the current construct to put into the CAT, I am more than 
concerned that we are putting--in fact, all of your Social 
Security numbers, as designed, will be in the CAT. And so we 
all sitting around this table should be concerned how we 
protect that information.
    Chairman Huizenga. Has Thesys presented any CISO (chief 
information security officer)--he--Mr. Beller said it is a 
collaborative process. Have they presented any candidates for 
that CISO position? And if so, why have they been rejected or 
not--
    Mr. Concannon. First of all, that entire space is very 
difficult to find candidates. It is one of the hottest employee 
spaces. We have had difficulty trying to attract cyber 
specialists.
    So it is a very difficult role to fill. This is a senior 
cyber expert that we are trying to find.
    We have looked at candidates. We have a very high standard. 
All of the exchanges and SROs have a very high standard, and we 
are using our own cyber professionals to evaluate, and they 
have an even higher standard of one another.
    So we have evaluated candidates and we have rejected 
candidates.
    Chairman Huizenga. OK. Since the CISO has not been put in 
place and this agreement hasn't happened under the Plan, would 
SROs really actually be able to begin reporting trade data to 
the CAT?
    Mr. Concannon. The SROs are subject to numerous rules. Data 
protection is covered by Reg SCI (Regulation Systems Compliance 
and Integrity).
    Chairman Huizenga. So there may be--and just to get to that 
there may be the physical ability, but is there the legal 
ability? Is that what you are saying?
    Mr. Concannon. In fact, there is the physical ability 
today. We can put our data in the current CAT system.
    Chairman Huizenga. So I could collect all of your Social 
Security numbers and put them in my phone. Would that make you 
feel OK?
    Mr. Concannon. It would not make me feel--
    Chairman Huizenga. You would be OK with that? I loan my 
phone out to my kids once in a while. Is that--I think we made 
the point that just because you can do something, we have to 
make sure that it is prepared on that. And I am curious who 
actually verifies that Thesys is complying with all the 
cybersecurity requirements, as well.
    Mr. Beller or Mr. Concannon or Ms. Dolly?
    Mr. Beller. So there is a--the Plan itself lays out a very 
robust framework for security and a bunch of audits and 
approvals that must be completed in order for the CAT to go 
live and operate. We need to collaboratively select the chief 
information security officer.
    The chief information security officer then has a fiduciary 
duty, actually, to the SROs via CAT NMS, LLC. So that duty 
actually trumps that person's duties to Thesys CAT itself.
    Chairman Huizenga. And presumably the SEC, or no?
    Mr. Beller. I don't know of anything in the Plan that 
places an expectation that the CISO reports to the SEC. This, I 
think, has to do with how the Plan is structured and the 
relationship of the SROs to the SEC, so maybe--
    Mr. Concannon. I have had a rule throughout my career that 
nothing trumps the SEC.
    Chairman Huizenga. Spoken like a truly regulated entity.
    OK. So I am over, but let me just encourage you to move 
forward, both of you--collectively, not you individually, but 
collectively. We need to get this CISO in place so that we can 
start meeting with that.
    I am well over, but I recognize the Ranking Member for 5 
minutes.
    Mrs. Maloney. Thank you. And I join you in saying that we 
have to get this CISO appointed. I suggest that we have a 
hearing on this every month until we get them appointed and 
hear what the success of it is.
    Let me tell you, the stock market is exploding and many 
people are putting their faith and hope in it. And I think if 
we had a crash it would totally destroy the confidence of 
Americans in the system. So I think this truly, is probably the 
most important thing we could do in our Capital Markets 
Subcommittee.
    Where is Thesys located? You beat out 30 major companies. 
Where is your headquarters?
    Mr. Beller. Our headquarters is in New York City, and we 
have offices in Charleston, South Carolina additionally.
    Mrs. Maloney. OK. And where are you developing the CAT 
system? In New York City?
    Mr. Beller. In both locations.
    Mrs. Maloney. In both locations. And why is it taking so 
long?
    Mr. Beller. The CAT is taking a long time because it is a 
complex system with multiple stakeholders who need to act 
collaboratively in order to get this complex system up and 
secure. We obtained the contract to build the CAT 7 months ago 
and in that time have built out an organization, developed 
technical specifications, built out pieces of the CAT and the 
security program, and put them in place. And there are some 
items that remain that have to be done collaboratively by the 
stakeholders, including--
    Mrs. Maloney. I think we should have a collaborative 
meeting once a month and bring in all the stakeholders with the 
SEC and see how we can get an agreement so we can move this 
thing forward. I think this is a priority for our Nation.
    I would like to ask Mr. Gellasch, you noted that the CAT 
was developed in response to the Flash Crash, and certainly the 
CAT will help the SEC reconstruct another market crash like the 
Flash Crash. But apart from helping to reconstruct market 
crashes, will the CAT help the SEC perform their normal day-to-
day oversight functions? What will the CAT allow the SEC to do 
that it cannot do today or that it is doing very inefficiently 
today?
    Mr. Gellasch. Thank you for that question.
    A couple of things. One is most people talk about the Flash 
Crash as the precipitating event for the audit trail. That is 
actually a little bit untrue, and here is why: As far back as 
early 2009 there was an effort underway to understand who large 
traders were and who was actually engaged in trading. And in 
fact, there was a large-trader reporting regime that preceded 
the Consolidated Audit Trail, and the Consolidated Audit Trail 
proposal was released on May 26th of 2010.
    The SEC didn't write that several-hundred-page document in 
3 weeks. The SEC doesn't do anything that fast. So I would say 
the Consolidated Audit Trail itself came together after the 
Flash Crash, and certainly that was the precipitating event in 
providing public feedback.
    The reason why the underlying concern existed even before 
the Flash Crash was because the SEC and FINRA--neither know who 
conducts trading in our capital markets. So the current audit 
trial systems tell you who the broker is but not whose trading 
underlies it.
    What does that mean? So assume for a moment you have those 
who--for example, a market manipulator engages with a couple of 
different brokers and trades in a couple of different venues--
perhaps equities and maybe in options. Those things would not 
be seen in a coherent way.
    And so because you don't know who is doing the trading, the 
manipulations get lost in the noise of the markets. That is why 
it takes a whistleblower to find market manipulation cases.
    FINRA has incredible surveillance now that did not exist 7 
years ago either. They have actually put in--99.5 percent of 
equities trading goes into FINRA's pipe for surveillance. But 
even with that it is still only the stupid who get caught.
    Mrs. Maloney. OK. I would like to ask you what do you think 
of the proposed legislation that would prohibit the CAT from 
accepting personally identifiable information under the SEC 
has--unless the SEC has conducted a cost-benefit analysis? And 
is the collection of personally identifiable information 
necessary for a system like CAT?
    Mr. Gellasch. Well first, the whole point of the CAT is to 
find out who is doing the trading, and you have to have a 
certain amount of basic information about them in order to do 
that. Now, there are a number of ways that could be done.
    One would be to have all the personal identifying 
information in it. Another could easily be legal entity 
identifiers, which the CAT declines to do--doesn't do. I might 
argue that might be a more elegant way of solving some of these 
issues.
    But the cost-benefit analysis suggested by the proposed 
legislation, to me that cost-benefit analysis was done in 2009, 
2010, 2011, it was done in 2012 in the final rule for this. So 
it was done as part of the large-trader reporting analysis; it 
was done as part of the Consolidated Audit Trail analysis.
    It is long past settled that we actually need to know who 
is doing the trading in our markets. So I would argue that that 
is actually just to frustrate the purposes here.
    I 100 percent agree with trying to make sure that data 
security is important, and they should have someone there in 
that role. But it also requires cooperation.
    When we talk about what is taking so long to get this up 
and built, they have had it 7 years--or 7 months they have had 
the contract. They were involved in designing the 
specifications for years before that, along with the SROs, but 
that was only after several years of the SROs designing the 
specifications.
    Mrs. Maloney. OK. My time is up.
    I would be inclined to join the gentleman with his 
legislation if he removes the cost-benefit analysis, which, 
according to your analysis--2009, 2010, 2011--is past settled. 
I think this is a critical, critical issue.
    After the financial crash in 2008, the Flash Crash, 
everybody said, ``We have to know this information.'' If we 
care about the future of the financial system of our country we 
have to get this system up and running.
    All of you are going to be part of making that happen.
    I would like to get, if I could real quick, Mike Beller, to 
get from you exactly the elements that you will be collecting, 
send it to the committee. And I would like a monthly report on 
whether or not you have gotten the person assigned. Let us know 
or I will be calling you directly, because I think this is 
incredibly important to our financial security and to our 
country.
    I yield back.
    Chairman Huizenga. The gentlelady's time is expired.
    And the Chair right now recognizes the Vice Chair of the 
committee, Mr. Hultgren from Illinois, for 5 minutes.
    Mr. Hultgren. Thank you, Chairman.
    Thank you all. Grateful that you are here.
    It was stated that the SEC doesn't move too quickly. I 
think that is an understatement. And a big part of the delay 
has--it was over 2 years, I think, that this has stuck within 
SEC, so it is not just industry but there are other bureaucracy 
problems that are a challenge, as well.
    Mr. Concannon, I wonder if I could--first, welcome. Glad 
you are here. Thanks for your work.
    And if I can address my first couple of questions to you, I 
wanted to get your opinion on making sure the cybersecurity 
standards we are discussing today are really enforceable.
    As you know, the CAT operator is contractually obligated to 
be compliant with Reg SCI. Is there any reason to not make this 
a statutory requirement? Would this be an improvement to the 
discussion of the bill?
    And then also, do you believe compliance with Reg SCI, NIST 
(National Institute of Standards and Technology) standards, and 
other cybersecurity protocols would improve if the CAT operator 
were required to register with the SEC?
    Mr. Concannon. It is a great question.
    So Reg SCI is probably one of the most powerful rules I 
have seen by the SEC in a long time. The requirements that come 
with Reg SCI, because they are based on the NIST standards and 
they are global standards, require a great deal of work and a 
great deal of technical work included in that.
    So all of the SROs, all the exchanges have to comply with 
Reg SCI and, by definition, our vendors have to be in 
compliance with Reg SCI standards. So it would makes sense if 
the CAT was--obviously it has to be compliant with Reg SCI 
because of our own obligations and our vendor, but it would 
make sense if they were even a Reg SCI entity and registered 
with the SEC.
    That is really how the SIP, the securities information 
processor, where all the quotes come from our markets, is 
currently an SCI entity, as we call it. So it would make sense 
that others in the NMS Plan, including the surveillance part--
and more importantly, if they are carrying all this critical 
information--not just PII, but proprietary trading information 
is critical information that needs to be protected--it would 
make sense that everybody in the chain is a Reg SCI registered 
entity.
    Mr. Hultgren. Thanks. I am going to shift a little bit, but 
stay with you, Mr. Concannon, if I could.
    I was hoping to see if you could speak to some of the 
opportunities and challenges of data standardization. I 
understand all the exchanges and broker dealers could 
potentially report data in different formats, which would make 
it extremely difficult for the CAT operator to transform this 
data--these data sets into useful information for its users.
    What steps should be taken to be sure data standardization 
processes are as frictionless as possible? It seems like this 
could be an opportunity to minimize costs. I wonder if you have 
any thoughts on that.
    Mr. Concannon. Yes. This is a critical element that is less 
talked about because it is in the technical details of how 
orders are--and information is sent into really any database 
that we use for surveillance today.
    We outsource all of our surveillance, or some of our 
surveillance and market manipulation requirements to FINRA, 
where they have become the master of normalization or data 
standardization. All of the exchanges and the brokers have 
different order types. There are thousands of different order 
types that we have registered with the SEC, unfortunately.
    Each order type becomes a new standard, a new piece of 
information for surveillance purposes. If we don't standardize 
all those order types it makes surveilling that database very 
difficult. So it is critical to performing adequate and 
superior surveillance to have data normalization or data 
standardization.
    Mr. Hultgren. Thank you.
    Ms. Dolly, if I can address to you, this database, as we 
are talking about, is going to contain every stock quote and 
trade in America. Apart from safeguarding personal information, 
what protections are being used to ensure the security of 
trading and quoting data?
    This information could be firm-specific and theoretically 
could be used to reverse engineer broker dealer strategies to 
serious detriment of not just the broker dealer but also the 
client and ultimately to the markets themselves.
    Also, this could all happen without a breach of the CAT. 
This is something we recently discussed in the committee when 
there were allegations of SEC staff illegally accessing trading 
source codes. Thousands of people have access to this data.
    Do you and does SIFMA share this concern? What do you 
believe should be done to address these concerns?
    Ms. Dolly. Our company doesn't really trade on a 
proprietary basis, but I do represent 6 million individual 
investors and institutions, and I can tell you that it is 
critically important and a very large concern of theirs how we 
handle their information and how we protect it.
    And I believe to date it is not just the chief information 
risk officer that hasn't been hired; I don't believe that 
proper procedures and policies and actually the Plan around 
securing that data has been shared, and so I don't have comfort 
around that yet.
    Mr. Hultgren. Thank you all.
    I yield back.
    Chairman Huizenga. Gentleman's time has expired.
    With that, the Chair recognizes the gentleman from Georgia, 
Mr. Scott, for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Dolly, I read your testimony and it is very 
interesting, and I agree with you. But I would like for you to 
highlight, if you could, when you did in your report some 
serious data security implementation concerns. Of course, 
paramount was the one in which the failure of the CAT system 
processor's not having a chief information security officer in 
place before the first reporting deadline.
    Also, I have been getting some calls from some of our 
friends in industry for a further delay of the November 2018 
reporting deadline, and I would like for you, if you could 
share with us that aside from maybe a full delay, could you 
talk about what can be done in the short term, in the next 
couple of months, that would make firms like yours and, quite 
honestly, all of us in America sleep a little better? Because 
there is some struggling as to how far to delay, what to delay. 
What can we do right now, what--in order to do this?
    Ms. Dolly, as you go through this, we do have people who 
may be tuning in on C-SPAN, American people. ``What is CAT,'' 
they are probably saying. And of course we know it is the 
Consolidated Audit Trail, but if you could walk us through 
that, too, what we are talking about here and some suggestions 
from you as to what is most immediate that we need to do.
    Ms. Dolly. If I missed any of those questions just let me 
know.
    Mr. Scott. Sure.
    Ms. Dolly. So I think what we can do immediately is two 
things, maybe three. But first we need to work together in 
order to finalize the technical specifications for CAT.
    So I mentioned that the implementation deadline of November 
would be very difficult because firms need at least 12 months 
in order to implement. We haven't received the specifications 
to date and we are already a month into this now, so I am down 
to 11 months to be able to implement. And this is a large 
project for most firms, and we absolutely need a year to be 
able to design, create, and construct the solution.
    So that delay is not really sticking our feet in the mud; 
it is just reality that we need at least 12 months in order to 
be able to implement once we receive the technical 
specifications. So getting those technical specifications out 
will hasten our ability to comply and participate in CAT as an 
industry.
    Mr. Scott. Let me ask you, you also mention in your 
testimony a call for a serious cost-benefit analysis. Would 
that be helpful? And also with that analysis you wanted to add 
the consideration of whether personally identifiable 
information, or PII, should even be collected in the first 
place. Would you comment on that?
    Ms. Dolly. Certainly. I think that there are ways that we 
can move forward without PII being collected so that the 
regulators and the SROs can perform the surveillance that they 
need to perform and should perform to be able to provide for 
and promote a healthy and secure capital market for both 
institutions and investors. And it might be a more immediate 
way forward through the large-trader rule, through the legal 
entity identifier.
    If we could start there that might be a more immediate way, 
but what I would recommend is the collaborative effort on a way 
forward between the industry and the SROs and regulators.
    Mr. Scott. Yes. And I agree with you on that, and I think 
that is a very, very important point.
    Mr. Concannon, in your testimony you acknowledge that the 
work of CAT is incomplete and you cite data security concerns 
as a basis for that delay. Could you share with the committee 
today the efforts being done at the CAT operating committee to 
implement the data security protocols required by the CAT Plan 
before November 15th reporting deadline?
    Mr. Concannon. Great question. So the SROs that are 
responsible for delivering the CAT have been working diligently 
now for years, not only designing but also working with Thesys 
to build and implement. We meet not once a week but several 
times a week every week for hours on hours, and we have 
subcommittees that are meeting.
    We have built out a group of our own cybersecurity 
specialists to work, so we are in parallel working on the 
cybersecurity plan that the CAT will ultimately have while we 
are also out looking for a cybersecurity specialist to be 
employed by the CAT. So we are not standing still waiting 
around for this person to show up. Every SRO sitting at the 
table is hard at work and they are putting their highest 
professionals into the CAT process to make sure we deliver this 
CAT.
    Mr. Scott. Thank you very much, Mr. Chairman.
    Chairman Huizenga. Gentleman's time has expired.
    With that, the Chair recognizes the gentleman from Maine, 
Mr. Poliquin, for 5 minutes.
    Mr. Poliquin. Thank you, Mr. Chairman, very much.
    And thank you all very much for being here today.
    This is a very, very important issue. All of us here on the 
committee and here in the public sector have a responsibility 
to make sure our markets are protected and remain liquid and 
secure.
    This is still America. People like to invest, like to buy 
part of our economy, and they certainly have--should expect 
their data to be secure.
    And at the same time, I understand that the regulators are 
in the business of making sure that we have an opportunity, 
have the tools that we need, the data that we need to make sure 
you catch bad actors.
    I worry about everything. You do that when you come from 
rural Maine. I worry about our small investors.
    Let's say you are a nurse in Lewiston, Maine. And you are a 
single mom; you have a couple kids. You have aging parents and 
you see how expensive it is to care or help care for your 
parents as they get older.
    You are trying to save a little bit of money but you don't 
want to keep it under the mattress and you know you are getting 
almost nothing in cash, so you say, ``I want to buy 100 shares 
of Walmart and I want to buy it through my local broker, 
because I like Christmas and I buy my Christmas lights and my 
ornaments from Walmart, so that is a great way to invest in 
America.''
    So I am giving this information to my broker--who I am. He 
or she puts the order in. You get a confirmation back that, in 
fact, the trade has been executed at a certain price.
    Now, my question to you is the following: If something goes 
wrong with that mom who is a nurse in Lewiston, Maine with that 
trade or with her account, does that represent any disruption 
to our capital markets? I would say probably not.
    So my question is the following, is that, look, let's just 
call a spade a spade. We have a real problem with data security 
in America, whether it be the Federal Government, whether it be 
Equifax, or whether it be folks like Wells Fargo who have been 
misusing very sensitive personal data.
    Now, I have a concern that we are building a new system 
here to make sure we watch out for bad actors who could 
adversely or illegally influence market trends. I understand 
that. But you are putting a lot of data in one place--a lot of 
data in one place. And that concentration--maybe over-
concentration--of the data concerns me.
    Mr. Gellasch, am I pronouncing your name right, or close 
enough?
    Mr. Gellasch. Close enough.
    Mr. Poliquin. Close enough.
    How many pieces of data per day would run through the CAT 
system when this thing is up and running, roughly? Billions?
    Mr. Gellasch. It is close to 60 billion events per day.
    Mr. Poliquin. 60 billion events per day. OK.
    And could someone tell me--Ms. Dolly, maybe you can--tell 
me why all kinds of sensitive personal information, including 
Social Security numbers, which are critical to making sure 
families can proceed with their lives with financial security--
whether getting on an airplane, or getting a passport, or 
getting a job, or getting an interview for a job--why does that 
information need to be loaded up in one place where we know we 
have a problem everywhere and we are going to continue to have 
a problem with data security? Why is that information 
necessary?
    Mr. Gellasch. So if I can--
    Mr. Poliquin. Sure. Who wants to take a shot at it?
    Mr. Gellasch. Thank you. So the question is whether or not 
you need to know who that is or whether or not you need every 
piece of data about that person that is important to do that 
traveling along with that information. I would say those two 
things are different questions.
    Mr. Poliquin. And what is CAT doing now--what is being done 
so that the CAT will be up and running when it comes to this 
data? Is it necessary? Is it overkill? I am talking about for 
the little investor in rural Maine.
    Mr. Gellasch. Yes. I will say for the little investor--and 
I will also say, our members are also investors who have a lot 
of those people investing in them, too, it is their 
information, as well. So be it a large pension plan or 
something else, it is also a lot of those people.
    And I would say I 100 percent agree the information 
security is extremely, extremely important. What is equally 
important for them is to make sure that the market doesn't do 
something like a Flash Crash, because that will get them to 
lose their investment; that will also get them to say, ``I am 
not--I am going to put the money under the mattress again 
instead of buying my 100 shares of Walmart.''
    And that is what happened after the Flash Crash, actually. 
A lot of money did come out of mutual funds as a result of 
that.
    So one of the things I think we really need to focus on and 
say, look, what is the primary objective? The regulator needs 
to know who is doing the trading. That is a simple need. The 
regulators have known that now for decades. And they don't have 
that information.
    At the same time, how are you able to do that without 
having Social Security numbers traveling along with order 
information?
    I would say there actually was a somewhat elegant solution 
from legal entity identifiers and basic information and cross-
referencing that. I thought that that would be a solution. 
Unfortunately, that is not the way the Plan was developed. That 
is not necessarily the way this has moved forward.
    I do think that FINRA has incredible capabilities on their 
current surveillance right now, but I think their surveillance 
team would probably also be the first to tell you that without 
knowing who is doing the trading they essentially have to have 
a whistleblower or they have to hit a screen and get very, very 
lucky.
    Mr. Poliquin. Thank you, Mr. Gellasch, very much.
    Mr. Chairman, thank you for your indulgement. I appreciate 
it. Yield back my time.
    Chairman Huizenga. Gentleman's time has expired.
    And we are getting some conversations going over here, too, 
because I think this is a critical point in this whole 
discussion: What is it that moves markets? Is it the individual 
investor or is it an institutional investor? And that may be 
some area where we need to explore that.
    So with that, the Chair recognizes the gentleman from 
Illinois, Dr. Foster, at this time.
    Mr. Foster. Thank you.
    Let's see. I guess this is a question for Mr. Concannon or 
Mr. Beller.
    I assume that there was a rather detailed cybersecurity 
specification as part of the vendor selection process for this. 
And did this include things like, the NIST specification for 
cyber procedures, and so on?
    Mr. Beller. Thank you. The CAT NMS Plan, as published, 
contains an enormous amount of prescriptive information on 
security. In fact, I would have to say that it is the most 
comprehensive information security program that I have ever 
seen specified in my life.
    It includes background checks and fingerprinting of 
employees and contractors; physical security of facilities; a 
requirement to encrypt all data in transit and at rest, meaning 
when it is moving through the system and when it is on 
computers themselves; to segregate personally identifiable 
information from all other information; and to ensure that 
personally identifiable information is not returned as part of 
the normal use of the CAT. In fact, there are special rules to 
protect the personally identifiable information so that only 
specific users can be empowered to have it, and those users 
must have a need to know, and there are further cybersecurity 
restrictions there.
    So it is a very comprehensive--
    Mr. Foster. --Personally identifiable information, that is 
at the firm level, the individual level?
    Mr. Beller. Individual level.
    Mr. Foster. Individual. So this is like one trader inside a 
firm, for example.
    Mr. Beller. Yes. Or one customer of a firm.
    Mr. Foster. Right. OK.
    And so I had a question of--your testimony refers to 
defense in depth, where you have cloud-based storage. When you 
refer to cloud-based operations does that mean there are other 
users on the same silicon of this, or do you have a dedicated--
will all the CAT information, where--when it gets aggregated, 
be by itself in a room by itself, or are there going to be one 
of these things where you are selling computer time to anyone 
who is interested when--
    Mr. Beller. So some systems of the CAT are completely 
segregated. All the ones that involve personally identifiable 
information are completely segregated in data centers--tier one 
data centers, where the exchanges are located in Illinois and 
in New York--New Jersey, excuse me. And that data is all 
strictly in private data centers.
    Other data of the CAT, when encrypted, can exist in cloud 
systems that are inside the United States.
    Mr. Foster. OK. And the encryption-in-flight is with 
frequently renegotiated session keys and all this stuff?
    Mr. Beller. Absolutely.
    Mr. Foster. OK.
    Now, you also mentioned the query structure, that when you 
are querying--looking for abusive trading patterns, or whatever 
the data set will be used for, that you had some method of 
querying the data without just returning the entire 
unencrypted--give me all the trades for Renaissance or someone 
like that for the last 6 months. Do you have a way of querying 
it and identifying abusive patterns without actually pulling 
all the individual data for that?
    Mr. Beller. So let me clarify that the--just want to make 
sure that it is clear that the regulators, of course, have to 
do the querying, not Thesys. Thesys has to provide the system 
that permits the querying.
    But in answer to your question, as I understand it, yes, 
there are extensive query capabilities that allow the regulator 
to request a very narrow slice of the data very specifically. 
And to reinforce that I am--I repeat that in general queries 
against the CAT system will not return PII in any case, that 
that would be a separate query that would be specifically for 
authorized--
    Mr. Foster. A serial number for--that this was an 
individual. If you are looking at a correlation between things 
that look like market manipulation, where you have two 
allegedly separate traders--
    Mr. Beller. Yes.
    Mr. Foster. --And you are looking for correlations to find 
out if you are manipulating a price here and making a 
derivative bet there, or something like that.
    Mr. Beller. Exactly. So there would be a unique identifier 
for--
    Mr. Foster. There is a unique identifier, and so and the 
personally identifiable stuff is the translation of that to 
Social Security numbers and addresses. OK.
    Mr. Beller. So presumably that would happen--
    Mr. Foster. Identifying the existence of abusive trading 
doesn't require knowing who it is, just the pattern.
    Mr. Beller. At that point. The issue becomes figuring out a 
uniform identifier for the individual requires PII.
    Mr. Foster. OK. And then you have to understand if this 
person is actually the brother-in-law of that person, and I--
there is no way to not go into addresses and names and other 
databases to figure that out.
    And so eventually a lot of the querying will actually have 
to get access to, I would presume, to the personally--this--
there may be an illusory separation of this, is what I am--for 
the queries that actually take place.
    Let's see, and could you just quickly walk through how his 
query system would have identified the abusive behavior of this 
guy in London, whose name I forget, who actually went to jail 
over abusive trading around the time of the Flash Crash? What 
queries would have led to that?
    Mr. Beller. So I am not a regulator and wouldn't want to 
explain how a regulator does their job. The important point 
that I can state here is that without the ability to identify 
an individual then the orders just appear to be coming from a 
broker dealer, and how does one separate one person's trading 
activity from another?
    Mr. Foster. OK. Thank you.
    Yield back.
    Chairman Huizenga. Gentleman's time has expired.
    With that, the gentleman from Ohio, Mr. Davidson, is 
recognized for 5 minutes.
    Mr. Davidson. Thank you, Mr. Chairman.
    And thank you, to our guests. I really appreciate your 
expertise in this matter, and thanks.
    A couple of you talked about how--painted this as some 
draconian delay effort to sabotage CAT. And as the sponsor of 
the Market Data Security Act I can assure you that it is not.
    Frankly, I can't understand why it wouldn't take a simple 
memo, if it is as clean-cut as, Mr. Gellasch, as you say it is, 
as, ``Oh, well this has already been done. We have planned for 
6 years.''
    Great. Just send us a memo that says that. Piece of cake. 
Doesn't even take a week.
    But if you want to be thorough, in light of the new 
director at the SEC coming in and finding after the fact that 
there are data breaches in the SEC, as you point out, maybe 
they are not the best--someone is going to certify it. Shall we 
say that it is the chief information officer at Thesys? No.
    Mr. Beller, you have an organization to run, and certainly 
many other things to accomplish. In the absence of this 
position being filled, who fills the role now?
    Mr. Beller. So aspects of the role can be filled by other 
individuals. For example, we have security experts working 
together to build the security plan, and working 
collaboratively with the SROs on that. We have technologists 
who are experts in cryptography developing the cryptographic 
systems.
    But there are parts of the role that have to be fulfilled 
according to the Plan by a chief information security officer 
who has certain fiduciary duties and responsibilities, and 
those we can't--we have no way around.
    Mr. Davidson. Does that person somehow mitigate your 
responsibility as the CEO for everything that happens or fails 
to happen in your organization?
    Mr. Beller. Not at all.
    Mr. Davidson. Mr. Concannon, has Thesys presented any CISO 
candidates?
    Mr. Concannon. Yes. We have been evaluating a number of 
candidates for a period of time, and it is, as I mentioned 
earlier, it is quite a hard role to fill. It is quite a hard 
role to find adequate candidates.
    Mr. Davidson. What is the wisdom, in your mind, of going 
forward without someone who owns the responsibility for the 
security? Is the CEO at Thesys adequate accountability for data 
security, or should this position be filled?
    Mr. Concannon. As much as I will hold Mr. Beller 
responsible for anything that breaks in the CAT, we do need a 
cyber specialist sitting in the seat.
    I want to clarify something. We are very focused on this 
individual, but it is an entire process that that individual is 
responsible for.
    It is really network security; it is--and then it is also 
what we call penetration testing. So there has to be a third 
party that comes in--a professional third party that comes in 
and tries to penetrate the CAT network. And that is done by all 
of us--every SRO and hopefully most of the government agencies. 
We have these third parties that come in and try to hack our 
networks regularly.
    We have to get to that level of capability to ensure that 
this network that we are building, called the CAT, and all this 
proprietary information that we are putting in is protected, 
and even from our own hackers.
    Mr. Davidson. Thank you very much for that, because it 
highlights that it is not as simple as let's--``Yes, we have 
already been doing that. Let's just send a memo.'' It is 
something that would take a review.
    I am reluctant to say how long that review should take, 
whether it is a week or I would expect that it would be a 
matter of months or weeks, not a matter of months or years, in 
terms of making sure we have this well thought out.
    Ms. Dolly, you point out one of the critical pieces is, in 
most systems when there is a compromise, one of the most 
frequent collapses or breaches is inpoint security. There are a 
lot of inputs into this, and you pointed out that each entity 
that is involved in launching this product should also have 
some level of certainty in their data controls.
    And Mr. Concannon, you referenced that in a way.
    Could you offer your thoughts there, please?
    Ms. Dolly. Yes. As I outlined, the more places that this 
data resides the more requirements there are and the more 
complex the security and protection around it needs to be. The 
more users that have access to it and are able to do things 
like bulk download creates risk to the folks whose information 
is in there, and so it just creates more targets.
    Mr. Davidson. Thank you for that. And that is exactly it. 
It is risk-based.
    And I think my time is expired, so thank you for your 
testimony.
    Mr. Chairman, I yield.
    Chairman Huizenga. Gentleman yields back.
    With that, gentleman from North Carolina, Mr. Budd, is 
recognized for 5 minutes.
    Mr. Budd. I am going to yield to the gentleman from Ohio 
for a few moments.
    Mr. Davidson. Thank you.
    I just had one additional point there, because what we are 
asking in market data is that it be a risk-based assessment. 
And it is systemic, and maybe that has all been designed in.
    But when you have voids at the top, when everyone is 
responsible, as is often the case, no one is. And the concern 
is that this is going on; the concern is that it has gone on in 
the regulator, SEC, so doesn't it make sense?
    So what would be the downside of making sure that we get 
the product right? And when I think about it and I hear, ``We 
don't have the instructions,'' I think about other products 
like operating systems.
    Part of the reason these devices were so successful, when 
the one that I care to carry more wasn't, is they found people 
to be able to write apps for it. And so people had to have 
access to the code. However, having access to the code creates 
some security risks.
    So how do you keep that under control? What is the status 
of being able to get that and assure us that we have the risk 
controls, Mr. Concannon?
    Mr. Concannon. Thank you.
    Really I want to clarify one fact that we have been 
wrestling here and hasn't been mentioned. We have the most 
robust surveillance mechanism on the Planet. We have 
professional regulators across the country that are surveilling 
all of the data, every trade that takes place in our markets.
    So we are not--even though some other witnesses mentioned 
that--risk and there is manipulation going on, we are catching 
manipulation every day. We are catching manipulation across 
client accounts; we are catching manipulation across markets 
and across products. So we have some of the most robust 
surveillance.
    So when I think about getting it right I feel very 
comfortable that we are very protected. All of our investors 
are protected by the professionals that are defending our 
market.
    Mr. Davidson. Thank you.
    I yield back, Mr. Budd.
    Mr. Budd. Thank you.
    Mr. Concannon, to continue, so given the relatively limited 
Flash Crash activity since 2010 and the clearly increasing risk 
of cyber incursions that we have seen, it looks to me that the 
risk calculation concerning the CAT, or the Consolidated Audit 
Trail, truly changed. It looks like what we are trying to 
address, the Flash Crash, is less likely, and the problems that 
a single point of failure would cause are actually more likely.
    So is it your view, as well, and can you talk about the way 
that the risk environment has changed for this project and how 
that has changed over time?
    Mr. Concannon. Sure. First of all, there has been this 
misunderstanding that the CAT somehow stops flash crashes. It 
has nothing to do with stopping flash crashes. It is a 
database. It is a database where we house information.
    In fact, we had a mini flash crash in August 2015 and we 
were able to replicate the market behavior very quickly and the 
SEC was able to issue a report because they actually hired 
Thesys to write MIDAS (Market Information Data Analytics 
System), which is a database that they use to look at the 
market and study the market and analyze it.
    As I think about it, the material, the data that is going 
into CAT, both in phase one--and eventually PII data, but even 
just the phase one--is proprietary trading information of not 
only investors but market makers and proprietary trading firms. 
And it can be used to manipulate our markets.
    So the first phase of CAT is critical data going into a 
database that we need to protect. And I would agree with you 
that cybersecurity is the number one concern right now, given 
all of the evidence that we have seen by some of the most 
technically sophisticated operators that they, too, were 
hacked. So we need to have that as our first line of defense 
while we build this system.
    It is OK to take time to get it right because we have the 
best surveillance mechanisms today provided by the exchanges, 
the other exchanges that don't sit here, and FINRA.
    Mr. Budd. Thank you, Mr. Concannon.
    Ms. Dolly, in the remaining time I have, you note in your 
testimony that the draft CAT specs have been released today. 
They don't have a lot of detail on data security and 
protection.
    So in your opinion, what is missing in regards to what has 
been released so far?
    Ms. Dolly. Really just about everything. We haven't 
received very much around cybersecurity and the protection that 
we would demand and need to protect institutional and retail 
clients. So I don't believe that has been issued to date, and 
it would be a responsibility, I would imagine, of the CISO when 
they are hired.
    Mr. Budd. Thank you, Ms. Dolly.
    I am out of time. Yield back.
    Chairman Huizenga. Gentleman's time has expired.
    But we are hoping, if it is all right with our panelists, 
to do a quick second round, as well, if you have the time and 
the ability to stay. There is interest on--I think on our side 
as well as the minority's side. We do have one more person, I 
believe.
    Mr. Gonzalez, are you prepared?
    Mr. Gonzalez. Yes.
    Chairman Huizenga. You are recognized for 5 minutes.
    Mr. Gonzalez. Thank you.
    The question is for Mr. Beller, and the question is, the 
CAT Plan expressly requires that the CAT include industry 
standard data controls, including the cybersecurity framework 
established in the National Institute of Standards and 
Technology. Can you describe the specifics of the aspects of 
the CAT design that provide protections for personally 
identifiable information, such as customer data, that will be 
reported to the CAT?
    Mr. Beller. Thank you for the question. Absolutely.
    So first to point out that the--there are extensive 
cybersecurity requirements in the Plan. One of them is that the 
Plan processor has to build the system in accordance with the 
National Institute of Standards and Technology, or NIST, 
cybersecurity framework, which explains whole areas of control 
groups around many different aspects of security. It is a 
comprehensive plan and we are building to that structure.
    With respect to personally identifiable information in 
particular, there are an extra set of requirements that are 
specific to that data as opposed to or as distinguished from 
other data in the system. There is a special role-based access 
control that a regulatory user of the CAT is not necessarily 
permitted to access the PII except on a need-to-know basis. So 
that means there are extra access controls in the system that 
allow you to--allow an administrator to determine that an 
individual can be allocated access to that data or not, 
separate from access to the system.
    It is stored in separate areas, actually in separate 
physical data centers, and not stored in the cloud. It is 
encrypted in transit, at rest. There is an audit trail specific 
to the access to personally identifiable information over and 
above the auditing of everything else that happens. And in 
general, record displays in the CAT, they don't display the 
personally identifiable information.
    I also want to point out that personally identifiable 
information won't be collected in the CAT until phase two, 
when--not--it will not be collected in the initial deployment 
of the CAT, which only, in its initial phase, takes data from 
the participants themselves, which are the exchanges and FINRA.
    Mr. Gonzalez. Thank you.
    I yield back.
    Chairman Huizenga. Gentleman yields back.
    With that, the gentleman from California, Mr. Sherman is 
recognized for 5 minutes.
    Mr. Sherman. Ms. Dolly, what would it take for you to be 
comfortable resuming implementation of CAT, and what would it 
take for those of us whose data is in the hands of your 
customers to also be comfortable?
    Ms. Dolly. I would be much more comfortable if we 
understood what the technical specifications were so that we 
could make certain that we could build the house that we are 
being asked to build. If we don't know what we are building it 
is a little bit difficult to make certain that we meet the 
obligations.
    The second is that I would like a robust discussion around 
whether PII is actually necessary, or can we use patterns and 
other data so that we could identify things that may create 
uncertain markets or unsecure markets and be a risk to our 
markets, yet not create such a large database of personal 
information that is subject to cyber risk and other.
    And I would certainly be open to figuring out a way--a 
collective dialog that would help us to move implementation 
forward with insight and influence by all participants. We all 
have, quite frankly, a vested interest in a secure and healthy 
capital market, but we also have a vested interest and we have 
an actual duty to protect clients' and investors' private 
information.
    Mr. Sherman. Mr. Beller, I wonder if you could shed some 
light on how Thesys and the committee are approaching the 
hiring of a chief information officer. I assume you are 
recruiting someone with world-class experience in 
cybersecurity.
    Mr. Beller. Absolutely. We have engaged a prominent 
recruiter. We have 24 candidates under consideration, if I 
recall correctly just from memory. It could be changing day to 
day. A number have already been initially interviewed and we 
are now in the process of setting up interviews that would 
include both Thesys CAT personnel and SRO personnel.
    Mr. Sherman. Also, Mr. Beller, we should be focused on 
improving the data available to regulators without requiring 
market participants to engage in costly duplicative reporting. 
How do you tend to construct CAT so that the existing system, 
like OATS (Order Audit Trail System), can be retired as soon as 
possible after CAT is up and running?
    Mr. Beller. So it is our opinion that one of the real 
positive aspects of the Consolidated Audit Trail is it allows 
the retirement of several existing systems, one of which is 
OATS. And as I understand it, FINRA has published an 
explanation of the process by which, once the CAT has come up 
and is running and has, according to them, measured certain 
reporting quality standards, then they would be retiring OATS.
    Mr. Sherman. Ms. Dolly, is that a system that works for 
your members?
    Ms. Dolly. Yes. That would be fantastic if we got to that 
point so we didn't have duplicative reporting requirements.
    Mr. Sherman. Mr. Beller, could you provide a summary of 
Thesys' expertise with respect to management and security of 
market data, including expertise in responding to cyber 
attacks?
    Mr. Beller. Certainly. I personally have been involved with 
cybersecurity for an extended time. There is some information 
in my prepared testimony.
    In fact, as a researcher in the Bell Communications 
Research, which was the research organization of the telephone 
networks back in the day, I myself did research on the 
application of cryptographic protocols to securing 
communications.
    I have been involved in building such systems over--systems 
in the capital markets for quite a long time now. And one 
example of that--of course, it is not just me. My company has a 
large number of capital markets technology experts with a great 
deal of cybersecurity expertise.
    We have, for example, deployed the MIDAS system for the 
Securities and Exchange Commission starting in 2013. In fact, 
we received the contract in August 2012 and within 6 months had 
a system up compliant with the National Institute of Standards 
and Technology security framework and meeting all requirements 
required by that framework, and had authority to operate.
    That system has been operating for 5 years and we were 
recently renewed, showing renewed confidence in us.
    Mr. Sherman. Thank you.
    My time is expired. I yield back.
    Chairman Huizenga. Gentleman's time has expired, but we are 
going to move to a second round.
    And I will recognize myself here for 5 minutes to continue 
the conversation. A little bit of what Mr. Davidson was talking 
about, but certainly what the Ranking Member and I were talking 
about up here.
    Ms. Dolly, I would like to know, are retail investors 
typically involved in market manipulation?
    Or maybe, Mr. Concannon, you can address that, as well.
    Ms. Dolly. I don't know necessarily how to answer that 
question. I am sure they could be, but in the past there--it 
has been more of an institutional mechanism. For example, 
algorithms and trading platforms that kick off at certain 
points in a market movement generally have contributed more and 
are able to swing the market more, certainly, than a retail 
investor.
    Could there be a bad actor that is a retail investor? Of 
course. But the average retail investor, as described before, 
is not necessarily going to be able to move the market.
    Chairman Huizenga. Mr. Concannon?
    Mr. Concannon. Yes. In fact, when you look at the data--and 
Mr. Gellasch mentioned the large-trader ID--if we were to 
implement a large-trader ID we would probably capture the 
majority of what I will call the surveillance alerts that our 
regulators are seeing day in and day out. So retail investors 
generally are not involved in manipulation. There are retail 
investors that obviously get caught up in insider trading, and 
we capture those quite quickly.
    We are seeing an increase of--
    Chairman Huizenga. So just on that point, so you don't need 
PII at that point, that data, to necessarily catch somebody who 
is doing insider trading?
    Mr. Concannon. To be clear, we, the market and the 
regulators, always get PII. So the PII exists in the regulatory 
framework.
    Chairman Huizenga. But it wouldn't have to go into a 
database--
    Mr. Concannon. We don't need it--
    Chairman Huizenga. --To catch those inside traders.
    Mr. Concannon. --In the surveillance. There is not a 
surveillance mechanism in the U.S. that is surveilling Social 
Security numbers to look for insider trading.
    Chairman Huizenga. So have there been alternatives really 
considered? Mr. Gellasch talked a little bit about this large-
trader ID, which has been talked about.
    Why could we not just do that--assign a certain threshold 
and above has to have this ID, then use that, load that into 
the database. It would seem to me that that covers what the SEC 
is trying to get at; it covers the tracing of market 
manipulation and other things; yet, it doesn't expose 
individual retail investors, Bill Huizenga going out and buying 
300 shares of, pick it, Gentex or, Steelcase, or whatever it 
might be--good West Michigan companies.
    A, I am not moving the market. B, I am not using any 
manipulation into that, but I am exposed. And information is 
the gold--personal information is the gold of the modern era, 
as I always say. And if we know that there is a--that the safe 
has been cracked and we say, ``cat burglar got away, or maybe 
we even caught the cat burglar but let's just load some more 
gold into that vault,'' which we know has been breached, why 
would we continue to do that?
    So--
    Mr. Concannon. There was a question in that--
    Chairman Huizenga. Yes. Here is the question--
    Mr. Concannon. I understand the question.
    Chairman Huizenga. OK.
    Mr. Concannon. The answer is there are alternatives to the 
current design of PII in the CAT, and I was encouraged by 
Chairman Clayton's recent statements, and he continues to make 
those statements that he is open to looking at alternatives on 
PII in particular. Among the industry and some regulators we 
have talked about a large-trader ID solution as a fairly--
    Chairman Huizenga. Which could be an individual, right? If 
it is--
    Mr. Concannon. It can be a professional trader--
    Chairman Huizenga. --Buying huge, massive blocks as an 
individual.
    Mr. Concannon. This is a method that is used in the futures 
market. There is a concept of large-trader ID. It follows every 
order into the surveillance system so you can track the large 
trader based on their activity.
    So yes, there are solutions that are being kicked around to 
avoid having that PII information in the database.
    We will always get access. Regulators have ample access to 
PII information under the blue-sheeting technology that we 
have.
    Chairman Huizenga. When it comes to enforcement?
    Mr. Concannon. Right.
    Chairman Huizenga. I am going to get to you.
    But real quickly, Mr. Beller, you are including PII because 
you are required to include PII, correct?
    Mr. Beller. That is absolutely correct.
    Chairman Huizenga. OK. So if we come back and, working with 
the SEC, or legislatively we say, ``Hey, let's develop a 
separate system,'' you have no problem being able to do that?
    Mr. Beller. Absolutely.
    Chairman Huizenga. All right.
    I am over my--I am going to try to do that. The Ranking 
Member, I would--believe would go to Mr. Gellasch here, but I 
am--with that, my time is expired.
    Mrs. Maloney. OK. If anyone would like to respond to the 
Chairman's statements--Mr. Gellasch, why don't you start and 
anybody else who wants to respond.
    Mr. Gellasch. Thank you for the opportunity. I wanted to 
actually echo and agree.
    Frankly, the FINRA had proposed using a large-trader ID 
reporting system as part of the Consolidated Audit Trail many, 
many years ago and actually wrote a white paper on precisely 
that point. I think when you convert to a different model like 
that two things have changed since that time.
    One is, what is the purpose in the abstract? Where do you 
set those thresholds, becomes a very, very, very important 
question in terms of volume thresholds and those types of 
things. I do think that there is significant opportunity there 
to reduce risk, perhaps, while still capturing the bulk of 
concerning things.
    Two, there actually is a system that would be valuable in 
the legal entity identifier--again, one that was not included 
with the CAT but something that I would argue should be 
included in the CAT.
    And I will actually make a third point, which Mr. Concannon 
brought up, which is that a system similar to that is used in 
the futures market, and I would argue remarkably effectively.
    Mrs. Maloney. Thank you.
    Mr. Beller, you noted in your testimony that the CAT is 
subject to very robust cybersecurity standards. Have you 
actually completed your work on implementing these 
cybersecurity standards yet?
    Mr. Beller. The work is not complete, and we have discussed 
today some of the key elements that are missing. And one of the 
most important is the naming of a chief information security 
officer who has very specific roles in the completion of the 
process.
    Mrs. Maloney. If the exchanges started submitting data to 
the CAT today would that information be protected?
    Mr. Beller. I believe that the Plan requires us to go 
through some steps before we can accept data.
    Have we built a technical system that can receive and 
secure data? Yes, I believe so.
    The Plan requires us to go through a number of steps to 
certify that, and those are collaborative steps between us and 
the SROs: Naming the CISO, approving all appropriate 
cybersecurity policies, and having what is called an 
independent third-party audit of both the code--that is to say 
the software code--and the third-party penetration testing. 
Those things all are steps that are required and they haven't 
been done as yet.
    Mrs. Maloney. Mr. Gellasch, in your written testimony you 
pointed out that the CAT bears many similarities to FINRA's 
Order Audit Trail System, or OATS. Can you walk us through some 
of those similarities? What are the similarities to OATS?
    Mr. Gellasch. Yes. So the Order Audit Trail System actually 
itself was a response to a crisis in market surveillance, 
actually, and created in the 1990's for that purpose.
    And what it does is it is a comprehensive audit trail 
system, but it doesn't include beneficial owner information; it 
doesn't include the types of precision you need to conduct 
modern surveillance. It was a product of the late 1990's.
    And it is the--you glue that together. What FINRA does is 
they glue that together with the consolidated prop feeds to 
really get an understanding. And they do fantastic 
surveillance, but without the benefit of the beneficial owner.
    So trying to figure out who is doing the trading isn't in 
OATS, but it would be in the Consolidated Audit Trail. But 
conceptually they are remarkably similar.
    They are also remarkably similar in something Ms. Dolly 
spoke about earlier, which is how many people access the system 
and how many people are inputting into the system. One of the 
greatest challenges with the Consolidated Audit Trail, it is 
not just the folks who get to access the data; it is actually 
one of the greatest challenges is something she has touched 
upon, which is the folks putting in the data.
    When you have thousands of folks putting data into a system 
a lot can go wrong. And that is actually one of the great 
challenges.
    And again, FINRA has been doing this a very long time, and 
actually that--they have learned from that over now several 
decades, and that--all of that knowledge has actually gone 
into, I think--
    Mrs. Maloney. So that is a very important point, so I want 
to go back to Mr. Beller.
    Who is going to be putting the data in, Mr. Beller, into 
your system? Who is going to have--be putting that data in?
    Mr. Beller. The broker dealers will each be responsible for 
transmitting their data into the CAT on a daily basis.
    Mrs. Maloney. And the basic difference between CAT and 
OATS, again? What is the basic difference between them?
    Mr. Beller. Oh, was this to me?
    Mrs. Maloney. I am talking to Gellasch right now, yes.
    Mr. Gellasch. Sorry. Most important to me is knowing who is 
doing the trading. And as Mr. Concannon referenced, the--
    Mrs. Maloney. In other words, you don't know who is doing 
the trading in OATS, right?
    Mr. Gellasch. You don't know who is doing the trading.
    Mrs. Maloney. OK.
    Mr. Gellasch. That is right. All they can say is whether or 
not it is principal or not, and so they--you don't know who the 
beneficial customer is.
    Mrs. Maloney. OK. Going back to the point of Ms. Dolly real 
quick, she says there is duplication.
    So in your view, is the CAT necessary in light of the 
similarities to OATS? I am talking to you, Mr. Gellasch. Her 
point is there is too much duplication.
    Mr. Gellasch. Sorry, I--
    Mrs. Maloney. Do you think it is necessary? Is the CAT 
necessary?
    Mr. Gellasch. One of two things I think is absolutely 
necessary. What I thought when people started this process of 
building the Consolidated Audit Trail in 2009, before it was 
even released, was that you could--the thought was to upgrade 
OATS: OATS 2.0. And most of the industry thought that was what 
would happen.
    We have gone down a very different path now where we are 
creating the Consolidated Audit Trail and maybe retiring OATS. 
But in either outcome it is a critically important and 
necessary step to understand who is doing the trades in an 
automated way so that the regulators can actually see, in an 
automated way, who that is.
    Mrs. Maloney. Thank you.
    Chairman Huizenga. Gentlelady's time has expired.
    With that, the Vice Chairman, Mr. Hultgren, for 5 minutes.
    Mr. Hultgren. Mr. Concannon, just real quick, can't they 
already get that information off the blue sheets?
    Mr. Concannon. Yes. To be clear, all the client information 
is available through blue sheets within 24 hours.
    Mr. Hultgren. Yes. That is what I thought.
    Mr. Concannon. And there has been a--more of a recent 
challenge for the regulators because what they are finding is 
certain traders, professional traders, usually sitting outside 
this country, are using their family account information to 
open up accounts to start manipulating markets. So today our 
regulators are already finding cross-market and cross-account 
manipulation. Having those identifiers flow through the CAT is 
helpful, but the bad actors have already found a way around 
that.
    Mr. Hultgren. Right.
    Mr. Beller, I wonder if I could address to you, your 
testimony and discussion generally is focused on preventing 
intrusions into the CAT database and also mitigating data loss 
in the event of such an intrusion. As you know and as we have 
talked about, the SROs and the SEC would be able to download 
data from the CAT into their own systems.
    I wondered, how can you protect the data once it has left 
your database that you have designed? It seems that once it is 
on another server that it would be susceptible to all the 
vulnerabilities that your cybersecurity efforts were designed 
to protect it against once it has left your database there. 
Wouldn't preventing the downloading of this information greatly 
reduce the risk of a data breach?
    Mr. Beller. Certainly we cannot control the data once it 
leaves the system. The Plan does call for the chief information 
security officer of the Plan processor to review the procedures 
that the SROs use to protect the data.
    We, in our original vision for the CAT and the vision that 
we are executing on, want to build a system that has as much 
functionality as possible on the platform so that the SROs can 
do their work on the platform and not have a great need to 
remove the data. But the Plan does require them to have the 
ability to remove the data.
    Mr. Hultgren. Seems like there is an obvious risk there 
that we need to continue to talk about and figure out.
    I am going to wrap up my time with Mr. Concannon and Ms. 
Dolly. And you have talked about this; Chairman Huizenga 
brought this up, but just maybe a little bit more. How could 
unauthorized access of identifiable proprietary transaction 
data be used for market manipulation if it even could? And 
wouldn't unauthorized access to identifiable proprietary 
transaction data run counter to CAT's goal of instilling market 
confidence?
    Mr. Concannon. So my biggest concern--and you raised it in 
your question, and it has nothing to do with PII. It has to do 
with the proprietary trading information of our members. These 
are firms who have spent millions of dollars developing just 
basic market-making code on how their market-making models 
perform.
    There are going to be people, bad actors that want access 
to that. And they can reverse engineer the information from the 
data in the database, and then they can trick the market-maker 
code to do bad things. And they can profit from that.
    And we see it every day. There are people that don't have 
access to the data that are trying to make market-makers lose 
money, and we are finding that behavior. But if they get access 
to that unique information it is much easier.
    Mr. Hultgren. Yes.
    Ms. Dolly, any last thoughts?
    Ms. Dolly. I don't know if this is manipulation of the 
market, but it is certainly manipulation of the investor: When 
access is penetrated what we have seen is that--what we call 
account takeovers, where bad actors come in and they are able 
en masse to be able to collect information that is personally 
identifiable, and even if it is simply their investing account 
they can go in and execute orders that would benefit them from 
a profitability perspective.
    Mr. Hultgren. Yield back the balance of my time to the 
Chairman.
    Chairman Huizenga. Gentleman yields back.
    With that, the Chair recognizes Mr. Vargas from California 
for 5 minutes.
    Mr. Vargas. Thank you very much, Mr. Chairman. Appreciate 
the opportunity.
    A question to Mr. Gellasch. You were saying that you 
expected there would be an OATS 2.0 as opposed to a--that we 
would go down this different avenue that we now have. So I 
would ask you this, then: Why is it so important that we know 
who is doing the trading? Is it because of--if you could expand 
a little bit on that, is it because of market manipulation, or 
because of data breach? Why is that?
    Mr. Gellasch. Yes, and I actually--this was something that 
Mr. Concannon also briefly touched upon. If you have the 
opportunity I encourage you to ask your staff, or you 
personally, to go speak with the market surveillance folks at 
FINRA. It is an incredibly impressive team that oversees the 
markets.
    And one of the most disturbing things I learned when I was 
a securities defense lawyer and had a number of firms as our 
clients, and I focused on trading cases--market manipulation 
cases, in fact. And one of the things that was really 
disturbing to me when I went to work for the government was I 
met with Tom Gira and the FINRA folks who are still there and 
they were able to show me how they--the trails went cold.
    They could see abusive trading; they could see 
manipulations. And the trails disappeared. And increasingly so 
if you were to have those conversations or your staff were 
today, they would disappear often in China, or Eastern Europe, 
or other places outside of the United States.
    And one of the things that is very, very, very hard to do 
is to track trading across markets. So they have gotten very, 
very good at trying to reverse engineer patterns. They have 
hundreds of them trying to reverse engineer patterns to 
basically solve a problem that would be readily solved and much 
more likely and consistently solved if they actually knew who 
was doing the trading in the first place.
    Mr. Vargas. Would anyone else like to comment on that?
    Mr. Concannon. Yes. Just in terms of the trail going cold, 
just to clarify--it isn't quite aware of how it works, 
unfortunately FINRA doesn't have the jurisdiction nor do the 
exchanges and the other SROs against an individual. And so 
those cases are passed to the SEC and the SEC then has full 
jurisdiction to go after individuals that perform manipulation. 
We have jurisdiction over only our members to prosecute our 
members.
    Trail going cold means there is an individual trader in a 
foreign jurisdiction trading in our markets doing bad things 
and it is at the hands of the SEC to go and prosecute that 
individual. That is very hard for them to do. When they think 
about all the resources that they have, there are a lot of 
bigger things for them to go after.
    And so trails do go cold, but we have rules in place now 
that will actually shut off the firm that actually allowed that 
individual into our market. So there is more detriment now 
because of some of the rules--recent rules that we have passed, 
where you lose complete access if you let bad actors into our 
market.
    Mr. Vargas. Mr. Gellasch, yes, sir?
    Mr. Gellasch. I might respond all of that is fantastic, and 
the market access rule is the one he is referencing, and 
others. I think that those are absolutely fantastic 
developments.
    The trouble is, again, in order for those things to happen 
you have to know that the manipulation is happening, and so 
when you look at some firms that may have thousands of 
customers all trading at real time, a lot of these 
manipulations actually just get lost in the noise, whereas if 
you are able to identify the individuals or individual firms 
they wouldn't.
    Mr. Vargas. OK.
    Mr. Gellasch, last to you, there are some people that 
believe that because of data breaches that the opponents of CAT 
say that things should be slowed down. Could you comment on 
that? Because we have known now for a long time there have been 
cybersecurity problems since 2010, I believe.
    Mr. Gellasch. Yes. Cybersecurity has actually been a 
significant concern for the years even before the Consolidated 
Audit Trail.
    And since then we--most recently we are certainly focused 
on Equifax and the SEC's decades-old EDGAR system, but we can 
go back in time, right? We can go back in time to things like 
Target with credit cards, or we can go back to JPMorgan Chase, 
or we can go back to a number of other very large--some of the 
most sophisticated firms in the world who, by the way, also 
have extremely valuable databases.
    Now, let's be clear: Is a database that may be worth 
billions of dollars and tens of billions of dollars to someone 
who wants to do bad things a bigger target than one that is 
worth maybe several billion dollars? The answer is yes.
    In both instances however, there is a pretty strong 
incentive and a pretty significant data risk associated with 
that. I think that those have existed now for years.
    Frankly, that is part of the reason why I find it 
interesting that I am on the panel defending the standards, 
protocols, requirements, and contract requirements that the 
SROs built into the Plan when they designed it along with 
Thesys and other data security experts, but that is where we 
are. They actually were very, very good about this and they 
have been for years, and they still are.
    What is interesting to me is to understand that they 
selected Thesys just a few months ago and it was only over the 
last several years--
    Chairman Huizenga. Gentleman's time has expired.
    Mr. Gellasch. --As this was evolving that those 
requirements were being established.
    Mr. Vargas. My time is expired.
    Thank you, Mr. Chairman.
    Chairman Huizenga. Gentleman's time has expired.
    With that, gentleman from Ohio is recognized for 5 minutes.
    Mr. Davidson. Thank you, Chairman.
    And thank you all for continuing to answer some good 
questions here so we can solve this problem, or at least be 
confident that it is solved.
    Mr. Beller, under the CAT NMS Plan, who verifies that 
Thesys is complying with all relevant cybersecurity 
requirements?
    Mr. Beller. The chief information security officer of 
Thesys CAT is also a fiduciary of CAT NMS, LLC, which is the 
consortium put together by the SROs. That duty, that fiduciary 
duty, overrides all other duties of that individual, and his or 
her activities are overseen by the operating committee of CAT 
NMS, LLC.
    Mr. Davidson. Thank you for that.
    And so when I look at that piece, one of the other pieces 
is--maybe, Mr. Concannon, you could answer--is what 
cybersecurity requirements the SEC itself or other users of the 
database obligated to implement in order to comply with the 
cybersecurity standards for access?
    Mr. Concannon. You are putting me in a difficult spot to 
suggest that the SEC has to have a higher standard of 
cybersecurity access.
    I will use Chairman Clayton's statement. He actually 
committed to not have anyone at the SEC access the CAT data 
until he was comfortable that they had the highest standard of 
cybersecurity protection, because under the CAT Plan the SEC 
has requested to have almost 1,000 users have access to the 
database through portals that will be provided by Thesys.
    So when we think about the complexity of this system it is 
not just putting data in a database that people have 
surveillance access, there are actual people, users, that will 
have access to this database sitting in front of a terminal in 
an office.
    Mr. Davidson. Yes. Thank you for that. And that goes to one 
of the inpoint security pieces that is so critical for any 
access control.
    And so one of the things, aside from great protocols and a 
lot of forethought given to it for years, and including in the 
specs that were released to even solicit bid references to 
cybersecurity, some voids still remain. And a lot of the 
question keeps coming back to personally identifiable 
information, and I get the tradeoff: If you don't know the 
beneficial owner, what is to prevent any one person from 
launching a dozen LLCs and, I know a dozen LLCs but you don't 
connect the dots.
    So you have to know some level of personally identifiable 
information. But, Mr. Beller you made reference to the fact 
that when this initially launches you don't have that. So I 
guess where is that balance supposed to be struck right now? We 
have talked around the issue a lot: What are the things that 
could be done while you are going live with the system before 
you begin to collect PII?
    Mr. Beller. Yes. So the reason there isn't PII in the 
initial phase of the CAT is because the reporters are just the 
exchanges themselves, and they are responsible--they receive 
incoming orders on the basis of what member of their exchanger 
is sending to them. So that is not--the number of members 
involved is very, very small relative to the hundreds of 
millions of personally identifiable information that we are 
talking about.
    In the second phase, where other broker dealers who are 
customer-carrying broker dealers come in, that is when the PII 
comes in.
    Mr. Davidson. Got it.
    Mr. Beller. And that does give a little bit--that gives 
extra time that is involved in the building of the CAT before 
the PII comes in.
    Mr. Davidson. So delaying that phase could accomplish a 
lot, if necessary. Frankly, it can be happening in parallel, 
not just sequentially.
    Ms. Dolly, you mentioned we are just now getting the 
technical specs. There is a lot of work left to be done.
    If there is a change in PII as you are in the process of 
doing said work, how big of a deal is that for compliance?
    Ms. Dolly. From an implementation perspective?
    Mr. Davidson. Correct.
    Ms. Dolly. Yes. We haven't actually gotten to the point 
where we have the specifications, so getting different 
specifications would not further delay it. So if we were able 
to figure out a way to remove PII, even if it was to put some 
other unique identifier for the client in there so that it was 
not exposing us, I don't think it would add anything to the 
implementation plan.
    And I also wanted to thank you for sponsoring this 
consideration of delaying it because we do have to get this 
right and I think an open and robust dialog around it will help 
us to get there.
    Mr. Davidson. Thank you all.
    My time has expired. I yield, Mr. Chairman.
    Chairman Huizenga. Gentleman's time has expired.
    And the gentleman from California, recognized.
    Mr. Sherman. Ms. Dolly, I am told that there are 58 billion 
records a day that we transfer to CAT. Does that mean there are 
58 billion stock and bond transactions every day?
    Ms. Dolly. No, those are elements of the transaction. So it 
is the order execution, it is the order details, it is quotes, 
it is--
    Mr. Sherman. So if I order my name, my address, the date, 
OK. How many transactions a day are we talking about being 
reported? Does any witness know?
    Mr. Concannon. So the bigger number is the quote and order 
information in our markets. So if you think about an ETF 
(exchange-traded fund), a very liquid ETF, there are thousands 
of quotes per second in an ETF. These are--
    Mr. Sherman. May not be a transaction; may just be an offer 
to buy or an offer to sell.
    Mr. Concannon. Exactly. No transaction, but many, many 
quotes.
    Mr. Sherman. So we are only dealing with a few billion 
transactions every--
    Mr. Concannon. Yes.
    Mr. Sherman. Glad our universe is small enough for us to 
deal with it.
    Let's see. Mr. Gellasch, CAT was created pursuant to the 
National Market System, NMS Plan. Could you describe how the 
NMS Plan model differs from traditional rulemaking? I know 
SIFMA has raised concerns that it allows the SROs and the 
exchanges and FINRA to minimize input from other industry 
participants.
    What do you think of how NMS is structured?
    Mr. Gellasch. Yes. Thank you for the question.
    I would argue the NMS Plan structure is a vestige of 
history that has long since passed its usable life. In the 
1970's, it was created with the idea of nonprofit SROs. We now 
have for-profit SROs, and when you have a set of for-profit 
regulators essentially empowered by the SEC to set the rules 
for market participants and set the cost structure for market 
participants, some of whom are their direct competitors, 
including broker dealers, other execution venues, you have a 
problem.
    So what we have is essentially, we have created a system 
where a handful of market participants--Mr. Concannon being one 
of them--essentially are able to dictate the terms of a 
significant amount not of just market structure but of costs to 
market participants. And if they agree, for example, with the 
goals of that--of what they have been tasked to do then they 
can execute that. However, they can also frustrate that, and 
that is how we see situations like the Tick Pilot or the 
Consolidated Audit Trail, I think, drag on for years.
    Mr. Sherman. Let me shift your attention a bit.
    If we delay we might do a better job and we will delay the 
costs. But if we delay we get the system later.
    Today the markets are operating. We don't have a CAT. What 
is the problem?
    Mr. Gellasch. Yes. I think that is--at some point we have 
boiled the frog when it comes to the CAT. It has been now 7-1/2 
years, and as every major--
    Mr. Sherman. What abuses are occurring--
    Mr. Gellasch. So this is--
    Mr. Sherman. --Because we don't have a CAT?
    Mr. Gellasch. Right. So market manipulations are occurring.
    I don't know when the next Navinder Sarao is going to cause 
the next flash crash, or significantly cause the next flash 
crash. But I do know that prior to him causing the next flash 
crash he was involved in a number of, what we later found out 
were, market manipulations.
    So once the whistleblower identified the bad actor and 
regulators were able to use the blue sheet process and others, 
they were able to reconstruct that he was someone that they 
could have identified and stopped a long time earlier.
    So the answer is I don't know what we are--we are now in 
a--
    Mr. Sherman. So it is not that the present system will 
catch it--the problem too late to stop it; the present system 
may never tell you that you had a problem.
    Mr. Gellasch. Both.
    Mr. Sherman. Both.
    Mr. Concannon?
    Mr. Concannon. I would vehemently disagree.
    The current system does capture manipulation. We capture it 
every day. We have hundreds of alerts, if not thousands of 
alerts, across all of the SROs and across FINRA, which is our 
not-for-profit regulator that sits at the middle of our 
markets.
    So we are capturing manipulation every day. We are well 
protected while we build a system that needs to be perfect. We 
can't make a mistake in building CAT. It has to be perfect.
    Mr. Sherman. I know my time is expired. I would just say 
that with the rules of the Cayman Islands, Switzerland, some 
other places, I would be surprised if you will ever know the 
beneficial ownership of some of the entities doing the trades.
    I yield back.
    Chairman Huizenga. Gentleman's time has expired.
    With that, I would like to thank our witnesses for sticking 
around, doing two rounds of questioning. I think this was very, 
very helpful. I think we made some progress.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    And with that, our hearing is adjourned.
    [Whereupon, at 12:04 p.m., the subcommittee was adjourned.]

                            A P P E N D I X



                           November 30, 2017
                           
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
